Supreme Court, U.S.
FILED

WAIVER

AUG 2 5 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Supreme Court Case

Robert Lee Stabnow

i Harpstead, Commissioner, Minnesota

v. Deparimentothiumansewices,sial
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[1] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my appearance
as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response will
be filed by a Bar member.
Signature

eips-- 496

Date.
(Type or print) Name

Leonard J. Schweich
El Mr

Firm

❑ Miss

❑ Ms. El Mrs.

Office of the Minnesota Attorney General

Address

445 Minnesota Street, Suite 1100

City & State
Phone

St. Paul, MN

651-757-1486

Zip
Email

55101

leonard.schweich@ag.state.mn.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO
PLEASE INDICATE BELOW THE NAME(S) OF THE
PETITIONER IF PRO SE.
RECIPIENT(S) OF A COPY OF THIS FORM. NO ADDITIONAL CERTIFICATE OF
SERVICE IS REQUIRED.

RECEIVED

CC: Robert Lee Stabnow

SEP - 2 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

The Office of

Minnesota Attorney General Keith Ellison
helping people afford their lives and live with dignity and respect •

www.ag.state.mn.us

August 25, 2020

Scott S. Harris
Clerk Supreme. Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Robert Lee Stabnow v. Jodi Harpstead, Commissioner of the Minnesota
Department of Human Services, et al
Supreme Court Case No. 20-5315

Dear Clerk:
Enclosed for filing in the above-entitled matter, please find the Waiver of Respondent
Minnesota Department of Human Services, waiving the opportunity to file a brief in opposition
to the Petition for Writ of Certiorari.
By copy of this letter, the petitioner is being served.
Sincerely,

NARD TISCHWEICH
Assistant Attorney General
(651) 757-1486 (Voice)
(651) 282-5832 (Fax)
leonard.schweich@ag.state.mn.us
Attorney
. for Respondent
Cc:

Robert Lee Stabnow

;1.

it U

RECEIVED
445 Minnesota Street; Suite 1400, St. Paul, MN 55101-2131
Office: (651) 296-3353 • Toll Free: (800) 657-3787 • Minnesota Relay: (800) 627-3529
An Equal Opportunity Employer Who Values Diversity
m Printed on 30% Post-Consumer Mat

'.SEP - 2 2020
erit5WEFNJ5R9ffiR
.sK.

